AUDIT OF SUPERFUND ACTIVITIES IN

 THE ENVIRONMENT AND NATURAL

    RESOURCES DIVISION FOR

  FISCAL YEARS 2011 AND 2012


        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 14-03

            December 2013

        AUDIT OF SUPERFUND ACTIVITIES IN THE

    ENVIRONMENT AND NATURAL RESOURCES DIVISION

           FOR FISCAL YEARS 2011 AND 2012


                            EXECUTIVE SUMMARY


        The Comprehensive Environmental Response, Compensation and
Liability Act of 1980 (known as CERCLA or Superfund), which was expanded
by the Superfund Amendments and Reauthorization Act of 1986, established
the Superfund program to clean up the nation’s worst hazardous waste
sites. 1 CERCLA seeks to ensure that individuals or organizations responsible
for the improper disposal of hazardous waste bear the costs for their actions.
It also established the Hazardous Substance Superfund Trust Fund (Trust
Fund) to finance clean up sites when a liable party cannot be found or the
third party is incapable of paying clean up costs. The Trust Fund also pays
the Environmental Protection Agency’s (EPA) for enforcement, management
activities, and research and development.

      Executive Order 12580, issued January 23, 1987, gives the Attorney
General responsibility for all Superfund litigation. Within the Department of
Justice (DOJ), the Environment and Natural Resources Division (ENRD)
enforces CERCLA’s civil and criminal pollution-control laws. In fiscal year
(FY) 1987, EPA entered into interagency agreements with the ENRD and
began reimbursing the ENRD for its litigation costs. In recent years, EPA
authorized reimbursements to the ENRD of $25.6 million for FY 2011 and
$24.6 million for FY 2012 in accordance with EPA Interagency Agreements
DW-15-92343901-0 (FY 2011) and DW-15-92343901-1 (FY 2012).




      1
          42 U.S.C. Chapter 103 (2012)
       The EPA and the ENRD Statement of Work required the ENRD to
maintain a system that documented its litigation costs. To this end, the
ENRD used a management information system developed and maintained by
a private contractor. The system was designed to process financial data
from the ENRD Expenditure and Allotment (E&A) Reports into:
(1) Superfund direct costs by specific case broken down between direct labor
costs and all other direct costs; (2) non-Superfund direct costs; and
(3) allocable indirect costs. 2

      As required by CERCLA, the DOJ Office of the Inspector General
conducted this audit to determine if the cost allocation process used by the
ENRD and its contractor provided an equitable distribution of total labor
costs, other direct costs, and indirect costs to Superfund cases from
FYs 2011 and 2012. We compared costs reported in the contractor’s
accounting schedules and summaries for these 2 years to costs recorded in
DOJ accounting records to review the cost distribution system used by the
ENRD to allocate incurred costs to Superfund and non-Superfund cases.

      We believe that the ENRD provided an equitable distribution of total
labor costs, other direct costs, and indirect costs to Superfund cases from
FYs 2011 and 2012.




       2
          The E&A Report is a summary of the total costs incurred by the ENRD during the
fiscal year. The report includes all costs (both liquidated and unliquidated) by subobject
class and a final indirect cost rate calculation for the fiscal year. Other direct costs charged
to individual cases include special masters, expert witnesses, interest penalties, travel, filing
fees, transcription (court and deposition), litigation support, research services, graphics,
and non-capital equipment. Indirect costs are the total amounts paid in the E&A Reports
less direct charges and are allocated based on the direct Superfund salary costs on each
case.

                                               ii
                                TABLE OF CONTENTS

                                                                                              Page

INTRODUCTION ................................................................................ 1

    OIG Audit Approach .........................................................................6

FINDING........................................................................................... 7

    Superfund Costs for FYs 2011 and 2012 .............................................7

    Reconciliation of Contractor Accounting Schedules and Summaries to

    E&A Reports ...................................................................................8

    Superfund Case Reconciliation ..........................................................9

    Superfund Cost Distribution ............................................................ 10

    Conclusion.................................................................................... 15

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS....... 16

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY .................. 17

APPENDIX II - FY 2012 CASES IN SAMPLE REVIEW ......................... 19

APPENDIX III - FY 2011 ACCOUNTING SCHEDULES

   AND SUMMARIES ........................................................................ 20

APPENDIX IV - FY 2012 ACCOUNTING SCHEDULES

   AND SUMMARIES ........................................................................ 29

                                 INTRODUCTION

      In 1980, the Congress passed the Comprehensive Environmental
Response, Compensation and Liability Act (CERCLA or Superfund) to clean
up hazardous waste sites throughout the United States. 1 The law addressed
concerns about the need to clean up abandoned hazardous waste sites and
the future release of hazardous substances into the environment. When
CERCLA was enacted, the Environmental Protection Agency (EPA) was
assigned responsibility for preparing a National Priorities List to identify sites
that presented the greatest risk to human health and the environment.
Waste sites listed on the National Priorities List were generally considered
the most contaminated in the nation, and EPA funds could be used to clean
up those sites. The clean up of these sites was to be financed by the
potentially responsible parties – generally the current or previous owners or
operators of the site. In cases where the potentially responsible party could
not be found or were incapable of paying clean up costs, CERCLA established
the Hazardous Substance Superfund Trust Fund (Trust Fund) to finance
clean up efforts. The Trust Fund also pays for EPA’s enforcement,
management, and research and development activities.

       Because certain provisions of CERCLA were set to expire in FY 1985,
Congress passed the Superfund Amendments and Reauthorization Act
(SARA) in 1986.2 SARA stressed the importance of using permanent
remedies and innovative treatment technologies in the clean up of hazardous
waste sites, provided EPA with new enforcement authorities and settlement
tools, and increased the authorized amount of potentially available
appropriations for the Trust Fund.

       Executive Order 12580, issued January 23, 1987, gives the Attorney
General responsibility for all Superfund litigation. Within the Department of
Justice (DOJ), the Environment and Natural Resources Division (ENRD)
administers cases against those who violate CERCLA’s civil and criminal
pollution-control laws. Superfund litigation and support are assigned to the
following ENRD sections: Appellate, Environmental Crimes, Environmental
Defense, Environmental Enforcement, Land Acquisition, Natural Resources,
and Law and Policy.




      1
          42 U.S.C. Chapter 103 (2012)

      2
          SARA is incorporated into 42 U.S.C. Chapter 103 (2012)

      Beginning in FY 1987, the EPA entered into interagency agreements
with the DOJ to reimburse the ENRD for its litigation costs related to its
CERCLA activities. As shown in Exhibit 1, cumulative budgeted
reimbursements for Superfund litigation represented 29 percent of the
ENRD’s total budget during the 26-year period from FYs 1987 through 2012.




                                    2

Exhibit 1: Comparison of the ENRD’s Appropriations and Budgeted
           Superfund Reimbursements (FYs 1987 through 2012)

                                    Budgeted Superfund
   FY       ENRD Appropriations      Reimbursements            Total ENRD Budget
1987                  $23,195,000              $11,550,000            $34,745,000
1988                   26,194,000               18,473,000             44,667,000
1989                   26,456,000               22,100,000             48,556,000
1990                   34,713,000               28,754,000             63,467,000
1991                   43,683,000               32,799,000             76,482,000
1992                   49,177,000               35,607,000             84,784,000
1993                   51,445,000               34,534,000             85,979,000
1994                   53,364,000               33,809,000             87,173,000
1995                   58,170,000               33,879,860             92,049,860
1996                  58,032,000                32,245,000             90,277,000
1997                  58,049,000                30,000,000             88,049,000
1998                  61,158,000                29,963,500             91,121,500
1999                  62,652,000                30,500,000             93,152,000
2000                  65,209,000                30,000,000             95,209,000
2001                  68,703,000                28,500,000             97,203,000
2002                  71,300,000                28,150,000             99,450,000
2003                  70,814,000                28,150,000             98,964,000
2004                  76,556,000                28,150,000            104,706,000
2005                  90,856,000                27,150,000            118,006,000
2006                  93,974,000                26,319,100            120,293,100
2007                  95,093,000                26,056,000            121,149,000
2008                  99,365,000                25,594,000            124,959,000
2009                 103,093,000                25,600,000            128,693,000
2010                 109,785,000                25,600,000            135,385,000
2011                 108,010,000                25,550,000            133,560,000
2012                 108,009,000                24,550,000            132,559,000
Total           $1,767,055,000              $723,583,460          $2,490,638,460
Source: ENRD Budget History Report for FYs 1987 through 2012


      The EPA and the ENRD Statement of Work required the ENRD to
maintain a system that documented its Superfund litigation costs.
Accordingly, the ENRD implemented a management information system
designed by FTI Consulting, Incorporated (contractor). The system was
designed to process financial data from the ENRD’s Expenditure and
Allotment (E&A) Reports into: (1) Superfund direct costs by specific case,




                                          3

allocated between direct labor costs and all other direct costs; (2) non-
Superfund direct costs; and (3) allocable indirect costs. 3

      The EPA authorized reimbursements to the ENRD of $25.6 million for
FY 2011 and $24.6 million for FY 2012 in accordance with EPA Interagency
Agreements DW-15-92343901-0 (FY 2011) and DW-15-92343901­
1 (FY 2012).

       Excise taxes imposed on the petroleum and chemical industries as well
as an environmental income tax on corporations maintained the Trust Fund
through December 31, 1995, when the taxing authority for Superfund
expired. Since that time, Congress has not enacted legislation to
reauthorize the tax. Currently, the funding for Superfund is comprised of
appropriations from EPA’s general fund, interest, fines, penalties, and
recoveries generated through litigation. Consequently, the significance of
the ENRD’s Superfund litigation can be seen in the commitments and
recoveries the EPA has obtained, with the EPA receiving over $9 billion in
commitments to clean up hazardous waste sites and recovering over
$6 billion from potentially responsible parties during FYs 1987 - 2012, as
shown in Exhibit 2.




       3
          The E&A Report is a summary of the total costs incurred by the ENRD during the
fiscal year. The report includes all costs (both liquidated and unliquidated) by subobject
class and a final indirect cost rate calculation for the fiscal year. Other direct costs charged
to individual cases include special masters, expert witnesses, interest penalties, travel, filing
fees, transcription (court and deposition), litigation support, research services, graphics,
and non-capital equipment. Indirect costs are the total amounts paid in the E&A Reports
less direct charges and are allocated based on the direct Superfund salary costs on each
case.



                                               4

            Exhibit 2: Estimated Commitments and Recoveries
                           (FYs 1987 through 2012) 4

            FY              Commitment                        Recovery
             1987              $           0                     $ 12,000,000
             1988                 10,000,000                       32,000,000
             1989                106,000,000                       73,000,000
             1990                 10,000,000                       56,000,000
             1991                186,000,000                      182,000,000
             1992                225,000,000                      211,000,000
             1993                187,000,000                      326,000,000
             1994                148,000,000                      490,000,000
             1995                117,000,000                      204,000,000
             1996                101,000,000                      338,000,000
             1997                280,000,000                      334,000,000
             1998                403,000,000                      308,000,000
             1999                386,000,000                      332,000,000
             2000                494,000,000                      153,000,000
             2001              1,418,000,000                      566,000,000
             2002                565,000,000                      277,000,000
             2003                474,000,000                      185,000,000
             2004                289,000,000                      202,000,000
             2005                647,000,000                      270,000,000
             2006                230,000,000                      146,000,000
             2007                271,000,000                      211,000,000
             2008                542,000,000                      429,000,000
             2009                272,000,000                      179,000,000
             2010                753,000,000                      726,000,000
             2011                902,000,000                      376,000,000
             2012                118,000,000                      132,000,000
       Total                   $9,134,000,000                   $6,750,000,000

       Source: ENRD Commitment and Recovery Report for FYs 1987 through 2012




       4
         Commitments are estimated funds from potentially responsible parties for the
clean up of hazardous waste sites. Recoveries are actual funds received by EPA that include
Superfund cost recovery, oversight costs, and interest.



                                            5

OIG Audit Approach

       The objective of the audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2011 and 2012. To accomplish our objective,
we assessed whether: (1) the ENRD identified Superfund cases based on
appropriate criteria, (2) costs distributed to cases were limited to costs
reported in the E&A Reports, and (3) adequate internal controls existed over
the recording of direct labor time to cases and the recording of other direct
charges to accounting records and Superfund cases.

      Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.




                                      6

                                   FINDING

          SUPERFUND COSTS FOR FYS 2011 AND 2012

      We found that the ENRD provided an equitable distribution of
      total labor costs, other direct costs, and indirect costs to
      Superfund cases during FYs 2011 and 2012.


      We designed the audit to compare costs reported in the contractor’s
accounting schedules and summaries for FYs 2011 and 2012 (see
Appendices III and IV) to the information recorded in DOJ’s accounting
records, and to review the cost distribution system used by the ENRD to
allocate incurred costs to Superfund and non-Superfund cases. To
accomplish this, we performed the following tests:

   •	 We compared Superfund total costs recorded as paid in the E&A
      Reports to the amounts reported as Total Amounts Paid in the
      contractor’s year-end accounting schedules and summaries, and we
      traced the costs to Superfund cases.

   •	 We reviewed the ENRD’s methodology for categorizing Superfund
      cases by comparing a select number of Superfund cases to the ENRD’s
      Superfund case designation criteria. 5

   •	 We reviewed the contractor’s methodology for distributing direct labor
      and indirect costs to Superfund cases, and we compared other direct
      costs to source documents to validate their allocability to Superfund
      cases.

       We performed these steps to ensure that costs distributed to
Superfund and non-Superfund cases were based on total costs for FYs 2011
and 2012; that the distribution methodology used and accepted in prior
years remained viable; and that selected costs were supported by evidence
that documented their allocability to Superfund and non-Superfund cases.
We used the test results to determine if the ENRD provided an equitable
distribution of total labor, other direct costs, and indirect costs to Superfund
cases during FYs 2011 and 2012.



      5
        FY 2007 ENRD memorandum entitled Environment and Natural Resources Division
Determination of Superfund Cases provides the methodology for designating Superfund
cases.



                                         7

Reconciliation of Contractor Accounting Schedules and Summaries to
E&A Reports

      To ensure that the distribution of costs to Superfund and non-
Superfund cases was limited to total costs incurred for each fiscal year, we
reconciled the amounts reported in the E&A Reports to those in the
contractor’s Schedule 6, Reconciliation of Total ENRD Expenses. According
to the E&A Reports, total ENRD expenses were over $129 million in FY 2011
and over $134 million in FY 2012, as shown in Exhibit 3.

               Exhibit 3: ENRD Expenses by Fiscal Year

              Description           2011               2012
             Salaries            $76,348,363  $74,576,322
             Benefits             20,780,267   20,488,820
             Travel                2,983,689    2,713,690
             Freight                 303,484      311,203
             Rent                 13,951,869   13,445,192
             Printing                 55,204       58,452
             Services             14,829,898   22,368,431
             Supplies                581,318      473,796
             Equipment                20,358       62,564
             Totals            $129,854,450 $134,498,470
            Source: ENRD E&A Reports for FYs 2011 and 2012

      We then reconciled the E&A Report amounts to the distributions in the
contractor’s Schedule 5, Superfund Costs by Object Classification, and
Schedule 2, Superfund Obligation and Payment Activity by Fiscal Year of
Obligation. We found that Schedules 1 through 6 reconciled to the E&A
Reports.

       After reconciling the contractor’s accounting schedules and summaries
to the E&A Reports, we reviewed the distribution of costs to Superfund
cases. Our starting point for reviewing the distribution system was to
identify and reconcile the ENRD cases as Superfund or non-Superfund. This
enabled us to extract only Superfund data from the ENRD data to compare
to the accounting schedules and summaries. The Superfund costs in
Schedule 2 of the accounting schedules and summaries for FYs 2011 and
2012 are shown in Exhibit 4.




                                       8

 Exhibit 4: Superfund Distributed Costs by Fiscal Year of Obligation 6

              Cost Categories                            2011       2012
     Labor                                         $7,549,318  $7,497,923
     Other Direct Costs                             1,211,907   1,625,726
     Indirect Costs                                11,849,954  11,717,352
     Unliquidated Obligations                       4,738,000   3,690,997
     Totals                                      $25,349,179 $24,531,998
     Source: Schedule 2 of the contractor’s accounting schedules and summaries

Superfund Case Reconciliation

      The ENRD assigned unique identifying numbers to all Superfund and
non-Superfund cases and maintained an annual database of Superfund
cases. To ensure that the contractor used the appropriate Superfund
database, we reconciled the contractor’s Superfund database to the ENRD’s
original Superfund database. The reconciliation identified 736 Superfund
cases in FY 2011 and 666 cases in FY 2012 in which ENRD incurred direct
labor hour costs. We also reviewed the Superfund case designation criteria
and case files to identify the method used by the ENRD to categorize
Superfund cases, and to determine if Superfund cases were designated in
accordance with established criteria.

     We judgmentally selected 25 cases from the FY 2012 Superfund
database to test whether the ENRD staff adhered to case designation
procedures outlined in the memorandum, ENRD Determination of Superfund
Cases (last updated FY 2007). 7 We compared the case number in the
Superfund database to the ENRD case file documents including case intake
worksheets, case opening forms, case transmittals, and e-mails. These
documents referenced laws, regulations, or other information used to
categorize the cases as either Superfund or non-Superfund for tracking
purposes. Of the 25 cases reviewed, we found no exceptions.




      6
       The amounts listed in this table reflect actual reimbursements. The interagency
agreements budgeted $25.6 million for FY 2011 and $24.6 million for FY 2012.

      7
          See Appendix II for the 25 cases we sampled.


                                            9

Superfund Cost Distribution

       Since we found that the ENRD’s case identification method adequately
identified Superfund cases, we proceeded to review the system used by the
contractor to distribute direct labor, indirect costs, and other direct costs
charged to Superfund cases.

Direct Labor

       During the 2-year period under review, the contractor continued using
the labor distribution system from prior years, which we had reviewed and
accepted in prior audits. The ENRD provided the contractor with electronic
files that included employee time reporting information and bi-weekly salary
information downloaded from the National Finance Center. 8 The contractor
used the following formula to distribute labor costs monthly:

Salary Starting Point: 	 Employee Bi-weekly Salary

Divided by:	               Employee Reported Bi-weekly Work Hours

Equals: 	                  Bi-weekly Hourly Rate

Multiplied by: 	           Employee Reported Monthly Superfund
                           and Non-Superfund Case Hours

Results In:	               Distributed Individual Monthly Labor Case Cost

      For purposes of our review, we:

   •	 compared total Superfund and non-Superfund labor costs to costs
      reported in the E&A Reports for FYs 2011 and 2012;

   •	 reviewed the ENRD electronic labor files and selected salary files
      provided to the contractor and the resultant electronic files prepared
      by the contractor to summarize costs by employee and case; and

   •	 extracted Superfund case costs from the contractor files by using
      validated Superfund case numbers.




      8
         The National Finance Center processes bi-weekly payroll information for many
federal government agencies, including DOJ.


                                           10

       We performed selected database matches to compare the ENRD
electronic employee time and case data against the contractor’s electronic
files used to prepare the accounting schedules and summaries, and to
identify Superfund case data. We determined total Superfund hours were
137,304 for FY 2011 and 134,579 for FY 2012. To determine the number of
Superfund cases with direct labor costs for each fiscal year under review, we
compared the ENRD Superfund billed time electronic data, which included
736 cases in FY 2011 and 666 cases in FY 2012 to the electronic files
prepared by the contractor and found no significant differences in the total
number of Superfund cases with direct labor costs for each fiscal year.

      Next, using the contractor’s electronic files, we determined that the
direct labor costs for Superfund cases were $7,549,318 for FY 2011 and
$7,497,923 for FY 2012. We traced these amounts to the contractor’s
accounting schedules and summaries, and selected the first two bi-weekly
periods in January 2011 and 2012 to review the calculation of the effective
employee hourly rates. We found the contractor calculated the effective
hourly rates in compliance with the methodology outlined previously in this
report.

      Overall, we were able to verify the accumulation of reported hours, the
development and application of hourly rates, and the extraction of labor
costs for Superfund cases. Therefore, we believe that this process provided
an equitable distribution of direct labor costs to Superfund cases during
FYs 2011 through 2012.

Indirect Costs

       In addition to direct costs incurred for specific cases, the ENRD
incurred indirect costs that were allocated to all cases. These costs
included salaries, benefits, travel, freight, rent, communication, utilities,
supplies, and equipment. The contractor distributed indirect costs to
individual cases using an indirect cost rate calculated on a fiscal year basis.

      The indirect cost rate was comprised of an ENRD indirect rate and a
Superfund-specific indirect rate. To calculate the ENRD indirect rate, the
contractor subtracted the amount of direct costs from the total costs
incurred according to the ENRD’s E&A report and divided this amount by
the total direct labor costs for the period. To calculate a Superfund specific
indirect rate, the contractor identified indirect costs that support only
Superfund activities and divided these costs by the Superfund direct labor
costs for the period. The rates for FYs 2011, 2012 are shown in the
Exhibit 5.



                                       11

               Exhibit 5: Indirect Cost Rates by Fiscal Year


                  Category                             2011                2012
       ENRD Indirect Rate                               155.6%              155.0%
       Superfund-Specific Indirect Rate                  27.4%               26.2%
        Combined Indirect Cost Rate                     183.0%              181.2%
      Source: Schedule 4 of the contractor’s accounting schedules and summaries,
      percentages rounded to nearest tenth of a percent

      Using the E&A Reports and the contractor’s electronic files, we
reconciled the total indirect amounts to Schedule 4, Indirect Rate
Calculation, to ensure that the contractor used only paid costs to accumulate
the expense pool. We determined that the total amount of indirect costs for
FY 2011 was $71,620,097. We also determined that the total amount of the
indirect costs for FY 2012 was $70,565,696. Therefore, we found that this
process generally provided for an equitable distribution of indirect costs to
Superfund cases during FYs 2011 through 2012.

Other Direct Costs

     The other direct costs incurred by the ENRD and distributed to
Superfund during FYs 2011 and 2012 are presented in Exhibit 6.

          Exhibit 6: Superfund Other Direct Costs by Fiscal Year



      Subobject Code and Description                        2011                 2012
 1153 – Compensation, Masters                              $      66,991     $     149,906
 1157 – Fees - Expert Witness                                  1,627,127         1,794,106
 2100 - Travel and Transportation                                262,144           291,214
 2411 – Printing and Reproduction, Court Instruments               4,552             1,663
 2499 – Printing and Reproduction, All Other                         789             4,629
 2501 – Filing and Recording Fees                                    157                 1
 2508 – Reporting and Transcripts – Deposition                    64,265           235,615
 2510 – Reporting and Transcripts - Court                              0            34,834
 2529 – Litigation Support                                       795,698         1,085,713
 2534 – Research Services                                          3,826            26,280
 2556 – Graphics                                                     825                 0
 2563 – Interest Penalties Incurred on Late Payments
 by the Government                                                    0                 35
 2598 – Miscellaneous Litigation Expenses                        11,123              1,632
 2599 – Other Services                                              395                  0
 Totals                                                 $2,837,892          $3,625,628
  Source: The contractor’s electronic files for FYs 2011 and 2012




                                           12
      As part of our audit, we selected the following four FY 2012 other
direct cost subobject codes to test.

      1157   –   Fees - Expert Witness

      2100   –   Travel and Transportation

      2508   –   Reporting and Transcripts – Deposition

      2529   –   Litigation Support


      For FY 2012, these four subobject codes comprised 88 percent of the
transaction universe (1,377 transactions) and 94 percent of the FY 2012
other direct cost expenditures ($3.6 million). Considering the possible
variation between these four types of transactional activity measures, we
employed a stratified random sampling design to provide effective coverage
and to obtain precise estimates of the test results’ statistics. The set of
transactions in the universe was divided into two subsets, a high dollar value
transactions and non-high dollar value transactions. We reviewed
100 percent of transactions in one stratum that consisted of high dollar
transactions within these four subobject codes. In total, we reviewed 273
transactions totaling approximately $1.6 million as detailed in Exhibit 7.

                     Exhibit 7: Other Direct Costs Tested
  Subobject                                        Number of       Dollar
  Code                     Descriptions           Transactions    Amount
   1157            Fees - Expert Witness               48          $729,529
   2100            Travel and Transportation           83           105,115
   2508            Reporting and Transcripts
                   - Deposition                        92            120,236
   2529            Litigation Support                  50            683,879
    Totals                                            273        $1,638,759
   Source: OIG other direct costs sampled

       We designed our review of other direct costs transactions to determine
if the selected transactions included adequate support based on the following
four attributes:

   •	 subobject code classification – verified that the correct subobject code
      was used to classify the cost;

   •	 Superfund/non-Superfund case classification – verified that the case
      number appearing on the documents matched the case number in the
      Superfund database;




                                            13

   •	 dollar amount – verified that the dollar amount listed in the other
      direct costs database matched the amounts on the supporting
      documentation; and

  •	   proper approval – verified that the proper approval was obtained on
       the vouchers paying the other direct costs.

      Our tests resulted in no exceptions in the testing of Fees – Expert
Witness (subobject code 1157) and Litigation Support (subobject
code 2529). However, our tests of Reporting and Transcripts – Deposition
(subobject code 2508) and Travel and Transportation (subobject code 2100)
revealed exceptions.

       Reporting and Transcripts – Deposition (subobject code 2508)

      We tested 92 Reporting and Transcripts – Deposition transactions and
found that all 92 transactions reviewed carried the correct dollar amount,
were classified to the correct subobject code and were properly approved.
However, two invoices tested were not correctly classified. We summarized
our analysis in Exhibit 8.

       Exhibit 8: Reporting and Transcripts – Deposition Issues

   Superfund       Voucher                                       ENRD Resolution of
    Matter ID      Amount         Description of Issue                 the Issue
  90-11-2-09952     $966      The supporting documentation     ENRD transferred $966
                              specified a non-Superfund case   to the correct non-
                              number.                          Superfund case.
  90-7-1-07401        $987    The supporting documentation     ENRD transferred $987
                              specified a non-Superfund case   to the correct non-
                              number.                          Superfund case.
Source: OIG analysis and ENRD general ledger documentation

       Travel and Transportation (subobject code 2100)

      While we found all 83 Travel and Transportation transactions we
reviewed had been appropriately classified and carried the correct dollar
amount; we noted that two transactions were not properly approved and
one transaction had the incorrect Superfund case classification.

       We summarized our analysis in Exhibit 9.




                                         14

               Exhibit 9: Travel and Transportation Issues

   Superfund        Voucher         Description of Issue          ENRD Resolution of
    Matter ID       Amount                                              the Issue
  90-11-2-09952      $2,097    No approval signature on the     ENRD provided
                               travel voucher.                  alternative
                                                                documentation of
                                                                approval.
  90-11-3-09813       $154     No approval signature on the     ENRD provided
                               travel voucher.                  alternative
                                                                documentation of
                                                                approval.
  90-11-3-10097       $997     The supporting documentation     ENRD transferred $997
                               specified a non-Superfund case   to the correct non-
                               number.                          Superfund case.
Source: OIG analysis and ENRD general ledger documentation



Conclusion

       We found that the cost allocation process used by the ENRD provided
an equitable distribution of total labor costs, other direct costs, and indirect
costs to Superfund cases during FYs 2011 and 2012. We provided our draft
audit report to ENRD officials who chose not to provide a response to the
draft report.




                                         15

                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
ENRD’s management complied with the Comprehensive Environmental
Response, Compensation and Liability Act of 1980 (known as CERCLA or
Superfund) and the Superfund Amendments and Reauthorization Act of 1986
for which noncompliance, in our judgment, could have a material effect on
the results of our audit. ENRD’s management is responsible for ensuring
compliance with federal laws and regulations applicable to the ENRD. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the
context of the audit objectives:


  •	 Comprehensive Environmental Response, Compensation and Liability
     Act of 1980 (CERCLA), 42 U.S.C. Chapter 103, Section 9611(k)

  •	 Superfund Amendments and Reauthorization Act of 1986 (SARA)


      Our audit included examining, on a test basis, ENRD’s compliance with
the aforementioned laws and regulations that could have a material effect on
ENRD’s operations, through interviewing ENRD’s personnel and contractor,
analyzing data, assessing internal control procedures, and examining
procedural practices.

     Nothing came to our attention that caused us to believe that the ENRD
was not in compliance with the aforementioned laws and regulations.




                                    16

                                                                 APPENDIX I

             OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

       The objective of this audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2011 and 2012.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. To accomplish the overall objective, we assessed whether:
(1) the ENRD identified Superfund cases based on appropriate criteria,
(2) costs distributed to cases were limited to costs reported in the E&A
Reports, and (3) adequate internal controls existed over the recording of
direct labor time to cases and the recording of other direct charges to
accounting records and Superfund cases.

       The audit covered, but was not limited to, financial activities and the
procedures used by the ENRD to document, compile, and allocate direct and
indirect costs charged to Superfund cases from October 1, 2010, through
September 30, 2012. We compared total costs recorded as paid on the
ENRD’s E&A Report to the amounts reported as Total Amounts Paid on the
contractor’s year end accounting schedules and summaries, and traced the
costs to the Superfund cases for FYs 2011 and 2012. We also reviewed the
contractor’s methodology for distributing direct labor costs and indirect costs
to Superfund cases for FYs 2011 and 2012. In addition, we reviewed the
ENRD’s methodology for categorizing Superfund cases by comparing a select
number of Superfund cases to the ENRD’s Superfund case designation
criteria for FY 2012.

       We performed detailed transaction testing of other direct costs for
FY 2012. Considering the possible variation between subobject codes 1157,
2100, 2508, and 2529, we employed a stratified random sampling design to
provide effective coverage and to obtain precise estimates of the test results’
statistics. We reviewed 100 percent of transactions (128) in one stratum


                                        17

that consisted of high-dollar transactions within these four subobject codes.
The initial test results showed one invoice for travel was not properly
approved, however after further discussion and review of alternate
documentation we determined the invoice was a valid Superfund charge and
we therefore have no exception in the high dollar strata.

       Additionally a stratified sample design was employed for the non-high
dollar transactions with 95 percent confidence interval, 3 percent precision
rate, and weighted average of 4.2 percent estimated exception rate. The
non-high dollar sample size was 145 transactions. The test results showed
there were no exceptions found in the randomly selected sample units for
any of the four attribute tests in the strata associated with sub-object codes
1157 and 2529. In our testing of subobject 2508 we noted 2 transactions
that were misclassified as superfund costs and the ENRD transferred the
transactions to the correct case. In our review of subobject 2100, we noted
a single transaction was not properly approved but in follow up with ENRD
we could validate it was a superfund cost. Additionally, in subobject code
2100 we noted a single transaction that was misclassified as a superfund
cost and the ENRD reclassified the expense. Since the noted errors were
under the expected error rate, and the ENRD had corrected the
classifications, we did not project the errors to the universe.

       For our assessment of internal controls over the compilation of direct
labor charges, we relied on the results in the U.S. Department of Justice,
Office of the Inspector General, Environmental and Natural Resources
Division Network Computer Security and Case Management System Internal
Control Audit, Audit Report 1-19, August 2001; U.S. Department of Justice,
Office of the Inspector General, Offices, Boards and Divisions Annual
Financial Statements Fiscal Year 2011, Audit Report 12-13, February 2012;
and, U.S. Department of Justice, Office of the Inspector General, Offices,
Boards and Divisions Annual Financial Statements Fiscal Year 2012, Audit
Report 13-12, January 2013. Additionally we verified the accumulation of
reported hours, the development and application of hourly rates, and the
extraction of labor costs for Superfund cases.




                                      18

                                                 APPENDIX II

        FY 2012 CASES IN SAMPLE REVIEW
       Case Number                  Classification
90-11-3-13148               Appellate
90-1-0-13780                Appellate
198-01380                   Criminal
198-01382/1                 Criminal
198-22-01232                Criminal
198-74-01207/1              Criminal
198-50-01044                Criminal
90-11-6-16156               Defense
90-11-6-18174/1             Defense
90-11-6-18543/1             Defense
90-11-6-19051/1             Defense
90-11-6-19361               Defense
90-11-2-09461               Enforcement
90-11-2-912/2               Enforcement
90-11-3-09445/2             Enforcement
90-11-3-10445               Enforcement
90-11-3-923/1               Enforcement
90-11-3-08304/2             General Litigation
90-1-23-10202               General Litigation
33-22-2429-10883            Land Acquisition
33-22-2431-11115            Land Acquisition
33-41-128-08208             Land Acquisition
33-46-434                   Land Acquisition
90-12-01316/1               Law and Policy
90-12-01779                 Law and Policy




                      19

                                                                                             APPENDIX III

    FY 2011 ACCOUNTING SCHEDULES AND SUMMARIES



lID F       T

                                                                                 -
                                                                                 '"~
                                                                                  ""'-"""
                                                                                  k '"U<XI
                                                                             _ lO"" ....,""".. "
                                                                                       " IO
                                                                              ... .",._,...
                                                                                 ~''"'''''''''''-
 FebnJary 20, 2012



 Mr, AAdrewColi..-
 U.S. Departmen! 01 Justice
 EnWonmen1 and N8bml1Reso ........ Dhleion
 Suite 2038
 B01 D Sit.." N.W.
 w..sttington. DC. 20004



 DR, Mr. Colier:

                                          f_
 EneIoeed pie ..... Md IIIe !<>Itovo.og final  )'011' 201 1 year """ accou~ng ><:hedulel a rd
 SlJ""""rft "'l4Iri'V to OOS\$ Olwrred by !he United _        Depa<trnen! '" Justice (DOJ).
 E n"~ and N;o( .... , Rewur_ Division (ENRO) <>n beIIoH of tho ErMronn'lental Protection
 Agency lEPA) uncle! II'IfI ComrnhOll.'ve ~ I RMI'On"", Compensation and Llabiily
 Iv;;. 011900 and the $uperf'-"<l Amendments and R.-.ormnion Act '" 1!166 ($ARI\. "'.
 _ o r, $uperlund):

        •    EPA   ~~ ing   Summary - ScIleduIes 1-7
             Septomb<:< 30, 2011

        •    DOJ _ SupoorlUod Caw CoIl Summary (OIeCIrOtlic copy)
             . , <of Sff>!"",(>o,< ~, ;:011

        •    DOJ - Supe<fi.o>d cases . 011'1'1011)1 AIIorneylParalegal
             Vaal" EncIed september 30, 2011 (eIeQroNc copy)

             OOJ · Superl\.nd Dn<:t Costa (oIe<:t",ni, <»py)
             Vear E _ Sepk>ml>er 30, 2011


                                                       ..,,,,,nI•.
 TIle oched\Jes represent 1110 r.... fiK.ol )'011' 201 1 •  ar..t est""bn on ntrrrect <XlSl r.to
 applbble to the entn fiscal YeI'r, "'" a _ul\, Ihe ,,,,,m;wia included .u~ all prior
 p<eU"'""'Y in/(wmation P1~ I>')' us reIaIlng 10 lise.. )eft, 201 1




                                                            20

Mr. And,ew Corlie<
U.S. DeFl"rtment of JwIice
FebnJary 20. 2012
Page 2


Tt>e '~vles. sunvnaries and calculotions have been prepared by us based on information
SlJppfoe<! to
            IJ$ by the ENRO . Professional time chII'ges. salary del8. ar>d _   ca"" specific
OXlst expendil\lre. have 1>een input orlran"aled by u. to procluoe the aforementioned repons.
Total costs incurred or o~igaled by ~ ENRD n refleoled in the EJcpendilure and Allotment
RepO/ts (EM) 10' the period ~ been used to calculate the total amounl due from EPA
relating 10 the Su pe!fund cases. Computer-generated time reporting informalien Wpplied to US
by OOJ (i)ased on ENRD'. aCCOOItM!ion 01 emomey eM paralegal hours) along with the
,esulling hoIIrty rate calculations made by US based on ENRD-wppiied employee salary f,le$,
h.;vt I:oee11 re~ by US tQ aS$e$$ lIle re asonableness of lIle calculated M~ /lltes. All
obligated lebo, amounts re!lecled on the EM's as 01 September 30. WI I , wIIich are r.ol
..... ti!ied as CII"" specific. have been clas.ified as iodirecr labor.



Oor reqlltStOO _PIt of services did no! oomtilute an aud~ of tile aforementioned $(;heduies
and summaries and, ,coctdingly. we do not e>opre$" an opinion 0t1 tIlem. Howe_. the
me!Ilodolcgy utilized by IJ$ to assign and allcc3te costs to &peelfoc cases is basad on generally
accepted aCOO\lnting poinaples. including references to cost allocation guid&Hles OUI~!Ied in the
Federal Acquisition ReglMlicn. and C<WI ACcoonting Slandard,. In addilk>n. we understand
thM the OOJ audhtall wi" continue to pe<form periodic audita ollllt! source <lccuinentation and
,,,,,,,,,arized time reponing informMioo aecumullltad by ENRO and wWfied to us. OUr
accoYl'llitlg reports. schedules ' nQ summaries wm, tl'l&relore, be made av' ~able to DDJ as part
of this audit prcceIIS. Beyond the speW'oc ~on. made above, we mal<e no othefterm
of ~$$"'aroce 0t1 the atoremenIicned schedules and sun-rnaries


Very truly yours,
H I CONSULTING, INC.




w;a;am M. KIm,
Senior Ml'naglng Oirector




                                                     21

                                                                                                                                                                      Sc ~«Iul.   I
                                                                               EPA BILLI NG SUM MARY
                                                                            SUMMARY OF AMO UNTS DUE
                                                                           BY INTERAGENCY AG REEMENT
                                                                                 Stpl.nI ~r 30, 201 1




                                                                                                                 1'1... 1 Y"I)


                                                              ,     l!lU
                                                                   20,611,179 (a) S
                                                                                         20 10
                                                                                        20.903,934           , ""24,911,000 (b)   , ""                   "" '"
                                                                                                                                      H.SS1.369 (b) $ 26,406.113
EPA 8 illin, S.m ... I')'. Am"un ! Poid

               "..
                                                                                                       '"'
 Poymen,. in FY 20 II ror 2~IQ (0)                                                       2,))9,910

 I"'-Y",<I\ts in FY 21)11 f... 2009 (a)                                                                            1.017,J4Q

 r.l m~nts   in FY 20 11 for 2001 (a)                                                                                                    21l,402

 hymen" in FY 21) I I for 2007 (aj                                                                                                                            1,315

                                            Su\'O.",.1             20.6 11 ,17'1        2l.241.904                n .9SD40            25.766.771         26.407.563

  U. liquid ... d O bliCO tl".. (e)                                 4,7)1,000            2,265.107                   99O,4n               45,611            103,740

 Toto'                                                         ,   2S ) 49. 119
                                                                      I
                                                                                    ,   25,,S(l9IGII
                                                                                                             ,   :M.94S ,117      ,   2S I&1lti!89   ,   26,510,803




                                      (a) So< EPA Bill ing $u",",OI)', Sch«lule 2. Septmtb<t 30. WI I
                                      (b) So< EPA Bill,n& S""'Mary. Schedule I. Scpl"",be\" lO, 2{) 10
                                      (e) So< EPA Bill '"i Summ...,... Sdt«lule 3, Septen>b<t lO, 2011




                                                                                                22

                                                                                                                                     S.btdu le1

                                                    EPA BILU NG SUMMARY
                                   SUPERFUND OBLIGATION AND PA ~fE NT ACTIVITY DUR1 NG 1011
                                               BY FI SCAL YEAR O F OB LI GATION


                                                                                      f1.uJ V •• "

                                                                                                                         1007
                                                                                        "'"                                          , ""'
                                               20 11              1019                                   2005
~m 2Y~!! f!l~;
      ~~
                                         ,     7,549,3 11    ,                    ,                  ,               ,                 1,549,318

                                               1,211,907            618, 1~S            1,002 ,913                                     an,an
     Other Ilir<oct Cos<.

      lndiT«l     eo...                       11,849,954          1.721.815                34,H7
                                                                                                            4,694

                                                                                                          201,7()1
                                                                                                                              '"
                                                                                                                            1.232     13,116,066

      SUp<ffund Program Expo""",

                              Sublot.1        ~O,6 11, 119        2.)39,910             \,017,340         21),4(12          1,38S     24.20),276

U. II ~.Id'l td   Obllplion' (al               4,1)8,000          2.26S,101               990,477          ~5 ,6"         101.24(1     8,1 42,442

To'ob                                        $2SI349. Jl9        S~ I60S ,Ol1
                                                                                  ,     2.°27 1 11
                                                                                              1          S1S' 102O       SI04 6H
                                                                                                                             1
                                                                                                                                      32.J.4S iI 8
                                                                                                                                             l




                                   (0) See SchOO"le J




                                                                                23

                                                                                                                                          S<hd.Io J
                                                         EPA 81LUNG SUM ~Alty
                              FISCAL ytAlIS 1011 , 1010, 1009, 100s. AN D lOO7 U~ LIQ U I D A TED OBLIGATIONS
                                                             Soopt... botr 30, :tOl l

                                                                                                       tlaul run



lNIUl U.Iiq.Ida,<o:I ObI •• ' .....
  a,
   S<pt •• ~rlO, 201 '                                    ,
                                                               l!!!l

                                                              .1 .351,251        ,
                                                                                      ill!

                                                                                      ',0".119        ,   "" , "" , ""
                                                                                                           1,215.6:tO        169.316          111,1.'
I.-: Unl"",KlIU<d OI>lipi<>no:

  50<1 ..... 1$9S (0)                                         22,112.]23              ~,199.'15             219.111          121.311           1l.t30
  50<1000 U!16 (b)                                              2.100,675               ll1.6ll
  s->oo 1'91(.)                                                 2,.oA7,009            2,014,71:1            ~t9.1SI           ~S . 52t        I02,1SO
    8._'
Net Unliquid010d QbIiVlions • ENRD
s.."",ruod ~nutl< (~)
                                                              27.:!IO,OO1
                                                              ll,971,2%
                                                                 10_1979%
                                                                                      ',H!,94)
                                                                                      1,.59.176
                                                                                       16.461rn
                                                                                                           I~M ~.o

                                                                                                               1.ll1
                                                                                                           '~OI4N           IV
                                                                                                                                 ...
                                                                                                                             1".160


                                                                                                                              .)499'\10
                                                                                                                                              114,610
                                                                                                                                                2,.163
                                                                                                                                              IUlW%
Su .... fuM poni(lll of U. lio:J"idotod
  Obligatio ...                                                 2,2I'1l,'I91            140,322                1,319
Add • S<o<tion 1598 Unli«.idoto:d                                                                                                  "             '"
  ObIip1ion.                                                    2,447,009             2,02'.715             989,'"            .5,S21          102,7:10

Totol S"J'<rfond Uoll<1""",I<'11 ObIIa.llon. (.)          ,     4,13&,000        ,    2 26S I07
                                                                                       1 I
                                                                                                      ,     990,.117    ,     .5 611
                                                                                                                                1
                                                                                                                                          ,   103,140



{IJ Staion 1595 •• IIl .. 10 rt"" ........1t 1IIf000DI1I from "'.... ieo Ollt .. th.wt EPA.
(b) Secliooo IS96 relal .. 10 noa.Superiund charJeo.
(oj Sect ..... 1591 rtlrtea toctwv>   that ..., Supufund spt<ifoc.
(dJ Suptfru..! ~'" of .... iquio:Weod dlliption> - . ",ku'-d by 4i.id~                        r-tO .we 5upfflUlld
       d"", Labof by "'" I0I01 dro:a bl>or r....><h Qflht f<>eal ~
(t) 11.01&1.. oa/y ICI un'""idalcd obi;" ..... for "'" frscal )__ ~ _




                                                                                        24

                                                                                                            Scb..hle4

                                           £PA BILLING SUMrl-lARY
                                        INDIRECT RATE CALCU LATiON


                                                                                                             ,-,
                                                                                                            _0. . .
     ..
                                                                                                             Pold (0)

lndi_      ..l>or(b)                                                                                          S21,9Ol.270
,~                                                                                                              20.11 1.3611
lndirttl irani                                                                                                     296,613
rrei, nt                                                                                                           303.4"
OIToce spK< and ortilill.,                                                                                      13.9)1,169
rmtin&(f"""l. «e.)                                                                                                  4}.701
TtoiAinI and oWr oavica                                                                                          6,IGII,~}

Soppli<o                                                                                                           "I,lll
s-..:opd>1i>:ed e<l .......... and mi... l-.                                                                        11.$11

                                                                                                                71.620.09"7

T.... I Dim:t Lobo<

     ENRD l.dirft:t COltS R.te • FN 2010 Obligation,                                                            1'$ .5664%

PI~ I;   Suprrl"tmd 11IIliret< C.... flO' Prior V_ ObIiplklm (e ) and Supcnund Specific C..... (d J

                                                                   $ 105.749
                                                                    l .lll.l U
                                                                        .l4,lS7
                                                                       101.101
                                                                          1,232

                                                     1"0111                           2.0Jl.361
                                                                                      7.549,l11




TonI Indirecc Rot<                                                                                               113.o10S%


                                        IaJ_
                (oj Iddiret< ... , ........       ~ ~od 011 • r'KIII yar._. buiL AU


                         .........
                         e_ "P'"'Jr.. aM 0I1><r unallowJbl< ...... (S«:1ion I S9S -..I ISM) .... bon

                (to) IlIIlir«:llabtH and l'iino:.. inc:lude <onain mlll"" .. nd obliptiOll O«r\IIIL
                (e) l.dlreCI e(lSl ~a for tile I"kIr ~ .., oblipliwo. ioolude<l in tile totolo p,.<lcnt<d
                          ...... r<lllowS; $1.663.)13: ·SI9J22: $:l01.701; ... d Sl,232; ro< FN 20 10
                          tl"""", FN 2007 rcsptoCtively.
                                                      10(1" ....
                 (01) ".. bol ..." "'tile elwjes ill !lie           ,""d " ..... paid dlloln,f: IIouJ ~_1011
                          10 "'';RIain Sooporlmod . _ In""""";"" .. perlonn od>er Sup.dl_ s,.c;r..
                          ... Mt~. t'II<-o< m.p. ......." ..ect IS o.....,1t of S<operi\>oId tad ....
                          of bmer~ cnJy 10 tile Sopsf....,j ~. Thoy have Ioeo:n allCltluect 0II1y 10

                         SlI,442; ond ~3.17\1; SO II'd SO far fN 101 1  til""""
                          SIIptrlund.,.... dtr<Iq/> 1Iti, ..,..... Wftcs - - " " Tho eharp< . . 110S.7' 9;
                                                                                     FN 1001 ...,.."i.ely




                                                               25

                                    EPA BILLING SUM:vIARY
                      SUPERFIj/lo' D C~lS BY OBJECT CLASS IFICAT IOJ'j




Obj ...
0...         lln<ript ....
                                     rn~
                                   E, .... _
                                                         lad'_.
                                                        b ... _
                                                                           11_liq.kIlolOll
                                                                          Obllt;'.'o.. /bj       ,~ ,




   "      ~'""                      $&,442~71             $.(,14S ,I2(I          S2,160,W6      11'.44',417

          _r,..                                            l,l'l6.23(               1'I6 ~17
  "       T,...I                       242,111                                       26,«>1
                                                                                                  l.S92,lll


  "       t'.. iaJu
                                                               41,6]1                              11723(


  "                                                            49,76S                 1,<r71         S7,I36


  "        Rent                                            1,211,116

                                                                  1,49)
                                                                                   426,£1.1

                                                                                      ,-",
                                                                                                  1.71 4,080


  "       PrintinB

          Seovi,,"
                                          S,29S                                                      IB,OlS


  "                                      71,)11            1,1 16,'26             1,II69,:!62     3,0'1,2S9


  "       SuWli..

          F ipment
          .....
                                                              9',)2(

                                                                  1,011
                                                                                      1,946         ID0i,270


  "         ,~,
                                    SS,76 1,22!i        511,$49.9$4
                                                                                                     )9,151
                                                                                                S2S,}49.179




       (0) .ncluda CGIII$ r dio-oa. Iab<z<, o.pe<iaI 1tW.... om apcrI wiInwes.
                           ..
       (b) Reprna>U .... ~ ponion of"nl",,~ dam,,"",




                                                       26

                                                                                                                  S<b«lul< 6

                                                EPA BILLING SUMMARY
                                       RECONC ILIATION or TOTAL ENRI> EXPENSr..s

                                                           Stpl<ml><. 30, lOl l



                                                                                                                       ..
                                                                                                    IndJr«'
                                 .....superfud-                     -Noo-5u p<,fu nd·-              S«:.ion         Total
Ob) ..,
a.~         OeK'lr'''~
                           DJ.«,
                         E:JIpon ...
                                               Indir«'
                                              hp<n ...
                                                                 VII'<O'
                                                                E.pon<tt
                                                                                   Jodl.« .
                                                                                  Expo . ...
                                                                                                   1595 & 15%
                                                                                                    f..~<.""         ,
                                                                                                                   Amounts


          Sal.des        $$,442,312          $4,84$,120         $1~,6IU)~         ~24,t61 ,WJ         $286.7<17    176,3 4$,36)
  "       lIoner..                            3,396.214                            !7,ltS,!l6           68,891      X1,730,267
  "       T.... I           242,1 88             4S,6.11          2,l1O,sJ 8          2.7,97S          1l4,lSO       2,911.689
  "       Fr<isi"                                49.76S                               2S3,119                          30),484
  "       ,~,
                                              2,287,8 16                           Il,664,M3                        13,951,&69
  "       Prin.inll            S,295               7,493              4,208              38,203                          5S,2ll4
  "       Sen.....            71,171           1,116,526          4.Il S,961        5.692,419        3,810,621      14,829,g<l8
  "
  U       Suppli..                               95,324                               48S .9'14                        5111 ,118

]1 &:42 Equipment                                  3,Q33                                 15,4 &9         1,831           2Q.356

Total                    $11 761 226        SII,849 95-4        SoIS,OM,S82       S59 875 892        SUOl 496     $129 1154,450
                            1 1                    1                                 1 1                 I            1




                                                             27

                                                                                                                              Sch edule 7
                                      DEPA RTM ENT 01' JU STICE
                             ENVIRONMENT AN D NATUKAL RESO URCES DI V ISI ON




        $r<ti(>n
AppeliOle
                          1I0u",

                                    M'    ,   Oi",<1 Lobo,
                                                      23.Q83
                                                               Oth<r Dlr«1 C"'t.
                                                                            .~
                                                                                   ,   Indirfft
                                                                                              42;:144
                                                                                                             Tot. 1
                                                                                                                  66.283
                                                                                                                                 C_
                                                                                                                                             ,
                                                                                                                                             ,
.....wOlld Policy
Crimin ~ 1                           "
                                   I.M3
                                                       2.6S0
                                                      82.H1               10.SS0
                                                                                               4 ..1S0
                                                                                            150.942
                                                                                                                   7,SOO
                                                                                                                 243.969                     ,
Def.....                                                                                    219.4]6
En(oo:eonent
                                   Ul43
                              132.907
                                                     119.'98
                                                                       2.S26.JK6         13.381 .64 6
                                                                                                                 339.124
                                                                                                              23.519.976                    ",
1-1.....1 R""",I'Ce,
                                    '"• ,
                                                   1.311.944
                                                       8.619                                 11.184               2 ~ .S6J              "",
.....nd Acq.
                    ,~,
                              1)7.3 04                   '" ,
                                                   1.S49.3U            2.8)7.892   ,           1.!:!4
                                                                                         13,8 16/.166    ,            1.661
                                                                                                              24.20).17~                no




                                                                    28

                                                                                      APPENDIX IV

FY 2012 ACCOUNTING SCHEDULES AND SUMMARIES


         F T . . . .,"
         COMlIn




_,5,2013




...
U.s. DepIIoWnent    of........,.
"' . . . " ... """ HatunoI -...."." Divioion
      ~
601 OStJ.ot N.W.
W~ DC.:!O(X)t




ORr t.V. Coller.

Eodoeed pIMM fiol(I "'" fo.'kMII.g "...     '**
                                              year 2012 _ _ _ ~ ~ WId
.........me.~ II> cc.II _              t,' ... Utfr.d sc.. 00IpertmenI <II J_ (DOJ),
ErN.Gilin ard NIIIunaI _ _ ~ (EfIRD) (WI bItWI d ... EnotoOO._a1
p,OIIK:!ion " - (EPA) II'ItIIor ... Ca, ..... _              J;,...,. .... '18I Rllpc.",.
~ and UlbIIIy Act of 11i18O tr'Id ... ~ ~ _
R_~cl l 986(SARAor._r,~:


               EPA BIIIng s..mn.ty - ~ '·1
               ~30.2012


               DOJ - $upooII.rKI C- Ooet s.--y ! _ ..
               NJ of Sepl&ub.. 30,2012
                                                                    *   O>PY)



               DOJ - ~c--nm.By~
               v..... ~ s..p...-3O, 2012 ( _..... """"
               DOJ - Supoorfu>;I DncI Costl; (......tu" ... ropy)
               y_ EncIed SolpIambet 30, 2012


TIle _                ' ... l .... h 1noI1ioIcaI_ 2012.mtU:1Ia...., _ _ an nIrec:t COS!
.... ~ fIO ... .....n I\oIcaI yWt. ,.. . . . . . . . . . . . . . . _ . ~ ............ ...
prior ...............,. 11'*" •• - . , ..   ! by .. ,-.g '" IiIcooI year 2012.




                            ""I_~_l/:I!            I   _~_




                       )l)loW1.1o.Xl1_     I aoueul72_     1_ _




                                                          29

Mr __ _ C_r

U.S. 0epertrnenI of JusIioa
March 15. 2013
Pag,,2


The SCIl&<).rIH; IIUtIlrI'Ialie$ WId caIcuIrions have bean p~ by llII based on
InIor'rnstion suppled 10 us by tt>to ENPO. P,,,,,,.. ioIoai *'>e chatgas, salary data • .n::t Q(t)er
ca9& opaciIIc coot ~ ...... _             been InpuI 0< tranoI8!ed by us to pmdlce the
a/Qrom&ntioned f8!lOIU. TQlaI a:>sts 1ncr,Ir~ 0< obIgated by the ENRD as _ I n !hi!
E.<pendiIure and .f.IoImeQI Repor:IO (EM) lor II"MI period have beM used to calculate Ih&
tcr\aI amount <lie fnrn EPA nllamg to ttlfI ~ _ . Compul«1J8II&_ tim<r
rep:>rting InIorm8tion SI4'Plied 10 US by DOJ (ll-.:I on ENRD's ..:ctJmllMion 01 attorney
end pew.galllooJrl) ~ with It.o rHIJ~ IIou1y me C!IICU1IIIonI m_ by llII _                       on
ENI"ID..uPl'lIad ompioVM salary ties, ha ..... beM ,&,iowed by us to _                          tile
...,...toIotneI;o of Ih& catcoMW'1Io<Jt1y t8te$. All obigoWllfbor ......... 1$ ~ on the
EaA's U of ~ XI, 2012. which I n net _.:I ..... opedIIc, _                                    been
~w.aoIIIed III Indk"ed labor.



CH      ~          ooope of _        did no! oonstitute an fnIdII 01 thIO aIor9mentir:Jo1ed
ocMjUa and """,maries ..-.I. II<>::Qdioogty.... (I(> I'lQ( o"P'"e$$ aro opDon on them.
H _ . Ih& n..!I\c:I4i4or;jy utiimd by US 10 IiS$igO arod allocate costli 10 spedio.,..\s
baNd on geoa~ aootpIBd ac:<:oIding prhclpllle, mtudng mfWMOM to coot allocation
IPJkleUn. oudhed In Ih& F-..t Ac:qWition AeguIotloo. and Ooor\ ~ S/.ancIan:ta.
In a<Icbon. we ~ IhaIthe DOJ aLidil _               ... conIinue 10 pertorm peo\odc _ _
01 !toe *"""" _ _             .1Id ounmai1zed .... ,epoItIrog WonnaIlon ~ by
ENRO and or.rpp5ood 10 us_ Out ~ repona, _                            and aumma ..... will,
........... , be . . - _ _ to OOJ .. """ 01 _ _ ~ pn;x>oa_ lIeyQnd the opocIIio
~ ~ -.,.., _ m_ no _1omI 01.............., on the -'''6'.0&01Old
_ _ ........:nan..

v"'"'Ir\IIy ~
FTI CONSUlTI NG, INC.


jl/l;;~
WlIlam "'" Kline
SanIor MIlIIGgIng DirDClOr




                                                 ,

                                                     30

                                                                                                                                                                  SdltduJe I
                                                                           EPA BlUJNC SUMMAlty
                                                                         SUMMARY OF AMOIJNTS DUE
                                                                       BY tNT'f.RACENCY AGJi:£F.MENT
                                                                                 StpCqI"" JO, lO l l




                                                             ,    lOU                  ....
                                                                                                             Dog' yap


                                                                                                              ""              ,    ...                 -.
                ...
I!J>A 800",500-,. - A _ hid


 hornoo- in I'Y 2012 for lOll (al
                                                                 20,1(',001 ,0) ,     20,6 11.119


                                                                                       1.611,011&
                                                                                                    '"   $ ll.,ZO.1JOoI (b)       15.9Sj.)C() Cb) $   n.U6,77'



 p,,)"""''';'' FY 2012 for 2010 (I)                                                                             '14.7tD

 Poymonw ;~     FY 2012 rOt 2009 (0)                                                                                                7WIl

 P.ymcn .. In        2012 far lOOt tl)                                                                                                                    ••913

                                         ......
                Py

                                                                 2{I.s4 I,00 1
                                                                                      ,,=""                  2J,768.i1i4          26.~.&$3            1l.nl.744

 U .. Uquloh'-'l ObIlJo,tIont (e)                                 l.(J9Q,991           '.100,)90              1•• 51.611             IW.W

 Total                                                       ,   14 ISJI ,998     ,   24'S991
                                                                                                         ,   25 .226.3'n      ,   26,f76,676
                                                                                                                                                 •    25 1
                                                                                                                                                         17'.7#




                                    (a) Sec SPA BIIli", SuIlllUl)'.liI:b<dIde 2. Sq.uiba :10, l(Il~
                                    (b)SnBf'ABi1Fi qs..m.....,r.~I ,S             • .. JO.1O( 1
                                    (el SoeEPABm iqSwJD.y.Sdwdule3.~ • •                 JO.XH2




                                                                                          31

                                                                                                                                   S' ' .. z

                                                     EPA BILUNC SUMMARY
                                    SU PERFUND OBUCATlO!'l AND PAYMENT ACTIVITY DUIUNC lOl l
                                                 BY FISCAL YKAJt OF OBlJCA nON




alll2lllll   Paldj
                                           •    ""
                                                7,497,9:13
                                                              •
                                                                   lOll

                                                                                  •
                                                                                   "     ')'tan

                                                                                       lOI1

                                                                                                     •
                                                                                                       ...         • "'"            -
                                                                                                                                  • ,..".,.
                                                                                                                                     1,497,923
        """
        (lIh<1 0;"""   c;n...                   .,62S,726            786,..101
                                                                                        ".'"            129.1~7        4.9./19

        Indi""" CtlOIU

                                Sublolal
                                               tI,717,?'l2

                                               20,114 1,001
                                                                   1,82$,111

                                                                   2.611,428
                                                                                          45.91 5

                                                                                        510&.180
                                                                                                             '"
                                                                                                        1)(1,$13
                                                                                                                           (16)

                                                                                                                       4,913
                                                                                                                                    1 3~S9.1,"


                                                                                                                                    2-4,712.695

Unllq"klote<l Obli.otl.)1If (oj                 l,~991             1,700,l9O           1,4j7,6U         190,81~                      7,039,898

T(>1.IoII;                                 S241i!3!,998           S4.311,8 18
                                                                                  •    1,9112.46/1     $9J1 336
                                                                                                           1
                                                                                                                      $<1,973       3!,1.'J2.~3




                                                                                 32

                                                                                                                                   Sdted ... e3
                                                      EPA BlLLlNC SUMMARY
                             FISCAL YEARS 2012, 2011, 2(11(1, 2009, Al'olJ ZOOS Uf'iLlQUIDA TED OBLICATIONS
                                                            Seplembed(l, lOll




ENItl) Unliquidated Ob ~ptions
 at Sepunober 30,2(111                                 ,
                                                             lOU

                                                            49,6SS.893       , "" 8,849.39'l    ,
                                                                                                  FIKal)'ean

                                                                                                    ....
                                                                                                     1.ll&.462     ,
                                                                                                                     ...
                                                                                                                       2&1).1 83   ,   ""
Leu: Unl"uidated Oblip(ions:

  Section 1595 (0)
  Sec,ion 1596(b)
  Secuoo 15911(<:)
                                                           30,&17,;m
                                                             4$13,035
                                                             1,594.355
                                                                                  S,oWI.409
                                                                                  D26.o38
                                                                                  1.6:10..846
                                                                                                      "".'"•
                                                                                                     l.oI51.6 l1
                                                                                                                         88.~39

                                                                                                                        190.620
    Subrolal                                               :16,1124.742           iI.4~5.2\l3        UIl.69t           279M')
Net Unl .... """"" Obliaatioru; ·
Superfund pem:nlog<: (d)
                                    ""D                     Il.nl.ISI
                                                              16.46&5%
                                                                                    424.104
                                                                                   16.397~
                                                                                                        24.71>'
                                                                                                     16.4618'10
                                                                                                                          1,1211
                                                                                                                       111.01(8%       1<).34!l91),

S"",,",,"" pottion of Un l"uidak>d
  Cltlligalion.                                                                                                             ,,,
Add· So;;,km ,59'11 U.'iqu"""'=<l
                                                             2,1)%.642
                                                                                     """                 <)'"

  Obligolions                                                1.!!94.:ljS          1.630.846          1.0'51.611         190.620

To>tol   S"~od     Unliquidafal 0bUpt"- (~)            ,     3.690.99'1      ,    1.700.390     ,    1.'51.6h      ,    190i!2.1   ,
(0) Section 1595 rels.tn ttl ",irnbw'sablt) an>oIIIUI from "",.ci... Oilier tI\aQ EPA.
(b) Se<tion 1596 ",1_ 10 "",,-SupClfund rn.<pt.
(e) Set'ion 1S98 relot« 10 charges thaI ..,Sopeffundopecific.
(d) Superfund percen,"", ofunl iquidaled <Jb.lip';"'" .... """,. Ioto<! by di,idio"year 10 date   S~uad
      direcllabor by rho lOIal direclillbor for eacb of the fi ...1)'W'$.
(e) Rolates ooly \0 unliqtridatod obIiptions fur rho IUc8l yeor iDdicoted




                                                                                         33

                                                                                                               Sd>rdu104

                                                EPA lULUNG SUMMARY
                                            INI>I RECf RATE CALCULATION




l ... iJco;t 1Ib(w (b)                                                                                           m,69(;,673
Fri"""                                                                                                            2O.~ 9 , 10l'i


    ...
J... i""" " ...1
                                                                                                                     """"
".
orne. ~•.m lllilitioo
Printiog(


-~
            rom.., ""'.)
Troinin' .... oilier lCI""Iiceo                                                                                        .
                                                                                                                     lIl ,W
                                                                                                                  13.~3.192

                                                                                                                       '"
                                                                                                                   7,81~,I26
                                                                                                                     473.795
No/I..capitaIi>.<d . " " " '.. .m ntio<:<:lbneoos
                                                                                                                     ""'"

                                                                                                                   154.9923'110

PI..., Superfu ... In<lir<>cl   eo". "'" Pri..- n.,. Oblipio.. (. ) ud SuperfUDd Specift< Cons ( d )
                                                   ""
                                                   ""
                                                                       S      96.149
                                                                           1.B2S,127
                                                   ,..
                                                   ""                        <tS,91~

                                                                                'M
                                                                                (16)
                                                   "'"

TOIaI Ind""", Ra ..                                                                                                181.2388%


                 ( 0.) Indirect <OS! rU, cakulaii""' .... preoeo!ed 011 fisai )'CIJ' IO-datt btils. A ll
                           .....peolr'" 0IId """" ....... Iowoblo..,.,. (Sect .... 1S9S ODd 1~96) h.v. boon
                           ~.
                 (b) Indired labor .... liini"S in<11I<I< """';A """''''_ obll... ion accrual •.
                                                                                            '''''is
                 (e) Indirect cOOl poym<nl< r... "'" pri<Jr )'CIJ obliplior>o lor;Iudr:d in !he  prescn!ed
                         . r.... roll""",; SI,71I.881; s.'I.U W; lS2; ODd ·$16; I", FrY 201 I
                        'bm"", FN lOO8 """""Ii>'ely.
                 (d) The bal • ..,. of ,"" 0"""" in ,he:   "",is _nltd ....... polO dori", fiocal )'Oir 2011
                           m maintain Superfund 0_ information (JI' porfortnOlllor Superfund Speclr",
                           .o<;1i.i'; ... 1'beo< ""irS« WU< l";tioItd ... ..wll of Sl.fIO'l'und.m_
                                                           Prouono.. Thoy ha ... ""'" ~ ""I, 10
                           of benofll only 10 the Strperl'und
                           Superfund ..... ""<>up ,hi< >epOltIO lodirec1 opproado. Tho oher&« .... $96.149;
                           $53,940; and $ )2.31~; $714 .... $0 for FlY 2012 throu,h FN 2008 """"",1 ...1,.




                                                                    34

                                   EPA BILLI NG S UMMA RY
                        S UPERFUND COSTS BY OBJECT C LA SS IFI C ATIO N




ObJ""                                     01 ... ,               I Ddi ••d           U.liq.. icbtod
~~             De.., • •,tl ....         E1",,,,,,,             E..... _             Obli &u~     (bl       TaI.1

  n         s".1.. ies (_)          ,      8.566,397        ,      4 ,6 S7,412       ,   2,44&,966      ,   15,612.175

                                                                                                             3,569,375
  "         Bmeli..

                                             275,709
                                                                   3,.3(;1,688

                                                                       43,323
                                                                                           201,687

                                                                                             35.%3            JS 4 ,~5
  "         T' ......

  II        Frciy.t                                                    Sl.2S1                1l ,80 I           63.052

                                                                                                             2 ,665.724
  "
            . ~,
                                                                   2.214,239                45 1,485

                                                                        8,065                 3,791             11.21.
  "         P,inti ng                           5,362

            Services                         276,18 1              1.231.043                400,076          ••963,300
  "
            Suppli ..                                                  78,021                  2.2(13           80,231
  "
  "         Equ iprn<nt
             Total                   ,     9. 123 649
                                                 1
                                                            ,          10,303
                                                                  1l.7 17,JH         ,      135,035
                                                                                          ),69(),m      ,      14S.;!38
                                                                                                            24.531,998




        (_) Include! COSIS for d i'e<:t labor. special maslen and ""perl witnesses_
        (to) Rep'....., .. the SUJlftfund """ion of .... liqu;da' ... obligation._




                                                         35

                                                                                                                  .........
                                                    EPA BILUNG SUMMARY
                                        RECONClUA nON 0' TOTAL ENRD EXPENSES




                                                                  -
                                                           StplCmbu Jt, WI!

                               --.-.....                                                           IndI,.t




                                                               - -
                                                                ,,-               ...               """,            Toul

,
"'J«<
   ....                     "'-
                            ,               IlMlireec
                                      t.'<t>"'W"
                                                                   ._NOII-Suporfuod- _
                                                                                                   Ft; _ l59Ii
                                                                                                  ISM '"           ,-,
                                                                                                                    .....
            o-riPtion   [




          ....
    " ""'""
    "
          ,
                        u.-m                ~fiS1 .412


                                             ,...,....
                                                               $)8J1H,I72        $23,1):J.4(()

                                                                                  11,Ill: 1,411
                                                                                                     SI4l.9l1

                                                                                                        19.11'
                                                                                                                   $14,516,322

                                                                                                                    lO,OA..,.




          -
          ,.~                17S.7O\l            4),32.1         :, . 42,IS2         219.7<13           ~2.76.'      2.113.690
  "                                             .s1.lSl                              ~."2                             )IJ,2Q3
  "
  "
  "
  ~
          Reni

          Pri"lin~

          Seroiec.
                               ,.~



                             TI6.181
                                             2.214.11'l

                                                  '.00>
                                             1.281,000
                                                                     4.121

                                                                 SJ.4(I,,20
                                                                                    .
                                                                                  11,1.'10,913



                                                                                   ..,-
                                                                                          ~


                                                                                                     '.7:16.602
                                                                                                                    1J~. I 92


                                                                                                                       '8.4.'12

                                                                                                                    n,168,4l1

          &.Ipplia                              16,m                                 ru.~                             .n,796
  "                                                                                                                    .,....
          Equiprococ
                                                                                         """
31 &.42                                          19,1Ol

,~
                        1'I.tn~9           SII.l17I!'l         504U60.96:I       "1.9+4' -         "1ffi:;210     $134.498.470




                                                             36

                                                  DU'AR'I'MEf(I' OF JUSTICE
                                      ENVIRONMENT AND NATURAL RESOURCES DIVISION



    ......
"",...
                        "MN
                                           --....         0II00r DiNoI   c.-       ,-                ,...
                                                                                                            "...,
                                                                                                                     C_
                                                                                                                           ,
                                            ,,-                                                                            ,
                                                 J,I~ 1                        S        9,336
                                "      S
                                                                                                            un
.....
1.1 .. ond Policy
                                "                   '"
                                                                     ...'"""
                                                                                        '.m

         - ..
Oimilllll                     1,700             ~                                     171 ,439          "..,,,             7
                                                                                     ",.n
                              2.911                                                                     ' 14,61 9
                                                                                                                           ",
......
EnrcwMI100M

"'"   " ,.
                    ,
                          129,'14


                          114J19
                                "S
                                       S
                                             . ,
                                             7.l4:1.Sf1
                                                     "
                                                    '"
                                             7(1!1{/D
                                                                  l.sl4.o9'

                                                                          -
                                                                  l,6lS,628    ,
                                                                                   13,1 l6,29'
                                                                                        U26

                                                                                   Il,m,I"."     ,
                                                                                                      1U02•• n
                                                                                                           ',1$1

                                                                                                      2ot, 71   '"
                                                                                                                W
                                                                                                                          .n
                                                                                                                          ~
                                                                                                                            •




                                                               37

